No. 19-71
IN THE

Supreme Court of the United States
FNU TANZIN ET AL., PETITIONERS,
U.

MUHAMMAD TANVIR ET AL., RESPONDENTS.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF OF JEFFREY D. KAHN AS AMICUS
CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,649 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 12, 2020.

Cohn Casey Hogan
Wilson-Epes Printing Co., Inc.

